      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




March 30, 2011

TO:           David Hansell
              Acting Assistant Secretary
              Administration for Children and Families


FROM:         /George M. Reeb/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Title IV-E Foster Care Costs Claimed on Behalf of Delinquent
              Children in Los Angeles County, California (A-09-08-00023)


Attached, for your information, is an advance copy of our final report on Title IV-E foster care
costs claimed on behalf of delinquent children in Los Angeles County, California. We will issue
this report to the California Department of Social Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360
or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-08-00023.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



April 6, 2011

Report Number: A-09-08-00023

Mr. John A. Wagner
Director
California Department of Social Services
744 P Street
Sacramento, CA 95814

Dear Mr. Wagner:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Title IV-E Foster Care Costs Claimed on Behalf of
Delinquent Children in Los Angeles County, California. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
James Kenny, Audit Manager, at (415) 437-8370 or through email at James.Kenny@oig.hhs.gov.
Please refer to report number A-09-08-00023 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. John A. Wagner


Direct Reply to HHS Action Official:

Ms. Sharon Fujii
Regional Administrator, Region IX
Administration for Children and Families
U.S. Department of Health & Human Services
90 Seventh Street, Ninth Floor
San Francisco, CA 94103
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    REVIEW OF TITLE IV-E
     FOSTER CARE COSTS
    CLAIMED ON BEHALF OF
   DELINQUENT CHILDREN IN
    LOS ANGELES COUNTY,
         CALIFORNIA




                      Daniel R. Levinson
                       Inspector General

                          April 2011
                        A-09-08-00023
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funds for States
to provide foster care for children under an approved State plan. Section 472(a) of the Act
establishes Title IV-E foster care eligibility requirements, such as the child’s age, deprivation of
parental support or care, and judicial determination that remaining in the home would be
contrary to the child’s welfare. For children who meet these requirements, Federal funds are
available to States for maintenance payments, administrative costs, and training costs. In
California, the Department of Social Services (the State agency) supervises the 58 county
welfare departments that administer the Title IV-E foster care program.

In Los Angeles County, the Department of Children and Family Services (the county agency)
administers the foster care program. The county agency has an agreement with the Los Angeles
County Probation Department that specifies this department as the responsible agency for Los
Angeles County delinquent children placed in foster care. A delinquent child is a child who is
adjudicated a ward of the court either because of the child’s incorrigible behavior or because of
acts committed by the child that would be considered criminal if committed by an adult.

The county agency determines the Title IV-E eligibility of children and submits claims to the
State agency for reimbursement of maintenance payments, administrative costs, and training
costs on behalf of delinquent children placed in foster care. The State agency submits claims to
the Federal Government for the county agency’s costs and is reimbursed the Federal share.

For Federal fiscal years (FY) 2005 and 2006 (October 1, 2004, through September 30, 2006), the
State agency claimed $83 million (Federal share) on behalf of Los Angeles County delinquent
children, including maintenance payments of $36 million and associated administrative costs of
$47 million for case planning and management.

OBJECTIVE

Our objective was to determine whether the State agency claimed Title IV-E maintenance
payments and associated administrative costs on behalf of Los Angeles County delinquent
children in accordance with certain Federal requirements.

SUMMARY OF FINDINGS

The State agency did not always claim Title IV-E maintenance payments and associated
administrative costs on behalf of Los Angeles County delinquent children in accordance with
certain Federal requirements. Of the 100 monthly maintenance payments in our sample,
80 payments were allowable, 18 payments were unallowable, and 2 payments could not be
evaluated because the case files had been sealed under a court order. The 18 unallowable
payments consisted of:




                                                  i
   •    13 payments and associated administrative costs for children who were not eligible for
        services and

   •    5 payments for eligible children that included costs for unallowable services or for
        services that were not provided.

Based on these sample results, we estimated that for FYs 2005 and 2006, the State agency
claimed unallowable Title IV-E costs totaling $5,700,637 (Federal share), consisting of
$2,212,926 in maintenance payments and $3,487,711 in associated administrative costs.

The State agency claimed unallowable Title IV-E costs because it did not ensure that the county
agency’s eligibility determinations and claims for maintenance payments complied with Federal
requirements. Specifically, the county agency (1) made incorrect Title IV-E eligibility
determinations or maintained insufficient documentation to support eligibility determinations,
(2) claimed payments for children whom the county agency had determined to be ineligible,
(3) claimed payments that included unallowable services because the county agency had not used
the correct non-IV-E percentages to exclude social work costs, and (4) made a clerical error that
resulted in a payment for services that were not provided.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal Government $5,700,637 for unallowable costs, consisting of
        $2,212,926 in maintenance payments and $3,487,711 in associated administrative costs,
        and

    •   ensure compliance with Federal requirements by periodically selecting a sample of foster
        care case files for delinquent children to determine whether the county agency (1) made
        correct eligibility determinations and maintained sufficient documentation to support
        eligibility determinations and (2) claimed payments only for eligible children, allowable
        services, and services provided.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency did not concur with our first
recommendation or the amount of the recommended refund. The State agency provided
explanations and documentation for five sample items related to unallowable maintenance
payments for children who were not eligible for services. The State agency concurred with our
second recommendation and provided information on actions that it had taken or planned to take
to address the recommendation. The State agency’s comments are included as Appendix E. We
excluded individual case file documentation attached to the State agency’s comments because it
contained personally identifiable information.




                                                 ii
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s documentation for the five sample items, we concluded that
one payment could not be evaluated and removed the associated finding from the final report,
three payments were allowable, and one payment remained unallowable. Accordingly, we
revised the number of payments that could not be evaluated, the number of unallowable
payments, the associated unallowable administrative costs, and the amount of the recommended
refund.




                                              iii
                                                    TABLE OF CONTENTS

                                                                                                                                          Page

INTRODUCTION..........................................................................................................................1

     BACKGROUND .......................................................................................................................1
       Title IV-E Foster Care Program ...........................................................................................1
       California Title IV-E Foster Care Program .........................................................................1
       Los Angeles County Department of Children and Family Services ....................................2

     OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................................2
       Objective ..............................................................................................................................2
       Scope ....................................................................................................................................2
       Methodology ........................................................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................................5

     COSTS CLAIMED FOR SERVICES PROVIDED TO INELIGIBLE CHILDREN ...............6
       Income Requirements ..........................................................................................................7
       Judicial Determination That Remaining in the Home Would Be Contrary
         to the Welfare of the Child................................................................................................7
       Facility Licensing and Approval ..........................................................................................8
       Age Requirements ................................................................................................................8
       Deprivation of Parental Support ..........................................................................................9
       Residency Requirements ......................................................................................................9
       Reasonable Efforts To Prevent Removal From the Home.................................................10
       Unallowable Associated Administrative Costs..................................................................11

     COSTS CLAIMED FOR UNALLOWABLE SERVICES AND
      SERVICES NOT PROVIDED .............................................................................................11
       Costs Claimed for Unallowable Services ..........................................................................11
       Costs Claimed for Services Not Provided .........................................................................11

     SUMMARY OF UNALLOWABLE COSTS CLAIMED ......................................................12

     RECOMMENDATIONS .........................................................................................................12

     STATE AGENCY COMMENTS ............................................................................................12

     OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................................13

APPENDIXES

     A: SAMPLING METHODOLOGY FOR MONTHLY MAINTENANCE PAYMENTS




                                                                       iv
B: SAMPLE RESULTS AND ESTIMATES FOR MONTHLY MAINTENANCE
   PAYMENTS (FEDERAL SHARE)

C: ESTIMATION METHODOLOGY FOR ADMINISTRATIVE COSTS

D: ESTIMATES OF ADMINISTRATIVE COSTS (FEDERAL SHARE)

E: STATE AGENCY COMMENTS




                               v
                                        INTRODUCTION

BACKGROUND

Title IV-E Foster Care Program

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funds for States
to provide foster care for children under an approved State plan. At the Federal level, the
Administration for Children and Families (ACF) administers the program.

Section 472(a) of the Act establishes Title IV-E foster care eligibility requirements. For children
who meet these requirements, Federal funds are available to States for maintenance payments,
administrative costs, and training costs:

   •   Maintenance payments are payments to foster parents, group homes, and residential
       childcare facilities on behalf of a foster care child for such things as food, shelter, daily
       supervision, clothing, school supplies, and reasonable travel to the child’s home. The
       Federal share of maintenance payments is based on each State’s Federal reimbursement
       rate for Title XIX (Medicaid) expenditures. During our audit period, the Federal share of
       California’s maintenance payments was 50 percent.

   •   Administrative costs are expenditures necessary for the proper and efficient
       administration of the Title IV-E program. These costs include such activities as case
       planning and management, preplacement activity, preparation for and participation in
       court hearings, determination and redetermination of eligibility, placement of the child,
       recruitment and licensing of foster homes and institutions, rate setting, and data collection
       and reporting. Also reimbursable in this category is a proportionate share of overhead
       costs. The Federal share of the administrative costs allocable to the Title IV-E program is
       50 percent.

   •   Training costs include the costs of training State or local staff to perform administrative
       activities and the costs of training current or prospective foster care parents, as well as
       personnel of childcare institutions. The Federal share of certain training costs allocable
       to the Title IV-E program is 75 percent.

California Title IV-E Foster Care Program

In California, the Department of Social Services (the State agency) supervises the 58 county
welfare departments that administer the Title IV-E foster care program. The State agency
licenses the homes of foster parents who are not relatives of the child, group homes, and
residential care facilities in California that provide foster care services. The State agency also
certifies out-of-State facilities and performs annual reviews to verify facility compliance with
California licensing standards so that out-of-State facilities may accept California foster care
children.




                                                  1
The State agency establishes the monthly payment rates for instate foster care facilities. The
payment rates for foster family homes are based on the age of the child, and the payment rates
for group homes are based on the level of care and services that the group home provides. For
group homes, care and services include activities performed by social workers. Because social
work costs are not allowable Title IV-E costs, 1 the State agency determines the non-IV-E share
of the group home’s payment rate by calculating the percentage of the group home’s total costs
that are attributable to social work costs. The county welfare departments then use the non-IV-E
percentage to exclude from Federal reimbursement social work costs included in the payment
rate.

Los Angeles County Department of Children and Family Services

In Los Angeles County, the Department of Children and Family Services (the county agency)
administers the foster care program. The county agency has an agreement with the Los Angeles
County Probation Department (Probation Department) that specifies this department as the
responsible agency for Los Angeles County delinquent children placed in foster care. Pursuant
to California’s Welfare and Institutions Code, sections 601 and 602, a delinquent child under the
responsibility of the Probation Department is a child who is adjudicated a ward of the court
either because of the child’s incorrigible behavior or because of acts committed by the child that
would be considered criminal if committed by an adult.

The Probation Department approves the homes of relative caregivers (relative homes) used for
the placement of Los Angeles County delinquent children. The Probation Department also
places delinquent children in foster care facilities licensed by the State agency.

The county agency determines the Title IV-E eligibility of children and submits claims to the
State agency for reimbursement of maintenance payments, administrative costs, and training
costs on behalf of delinquent children placed in foster care. The State agency submits claims to
the Federal Government for the county agency’s costs and is reimbursed the Federal share.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Title IV-E maintenance
payments and associated administrative costs on behalf of Los Angeles County delinquent
children in accordance with certain Federal requirements.

Scope

For Federal fiscal years (FY) 2005 and 2006 (October 1, 2004, through September 30, 2006), the
State agency claimed $83,186,068 (Federal share) on behalf of Los Angeles County delinquent


1
  Pursuant to 45 CFR § 1356.60(a)(1), costs associated with social services are not included in determining foster
care maintenance payments. Also, 45 CFR § 1356.60(c)(3) states that such costs are not claimable as Title IV-E
foster care administrative costs.


                                                          2
children, including maintenance payments of $36,079,368 and associated administrative costs of
$47,106,700 2 for case planning and management.

We did not review the State agency’s compliance with certain foster care requirements, such as
those related to development of a child’s written case plan, caseworker visits for a child placed
out of State, or 6-month court or administrative reviews of a child’s status in foster care. We
also did not review the Probation Department’s training costs because they were not claimed as
State and local administrative costs on Title IV-E claims. Additionally, we did not review the
cost components used to develop the monthly payment rates for foster care facilities. We relied
on the State agency’s non-IV-E percentages for instate group homes to exclude social work
costs. We also relied on the State agency’s licensing information to determine whether a foster
care facility was licensed and on the Probation Department’s approval information to determine
whether a relative home was approved.

We limited our review of administrative costs to case planning and management. The Probation
Department incurred these costs for children placed in foster care for whom maintenance
payments were made.

We did not assess the State agency’s or the county agency’s overall internal controls. We
limited our review to gaining an understanding of selected State and county agency controls
related to claiming maintenance payments and associated administrative costs to the Title IV-E
program.

We performed our fieldwork at the State agency in Sacramento, California; the county agency in
Glendora, California; and the Probation Department in Los Angeles, California.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal and State laws, regulations, and guidance;

    •    interviewed State agency, county agency, and Probation Department officials to obtain an
         understanding of the claiming process for maintenance payments and associated
         administrative costs;

    •    interviewed State agency officials to obtain an understanding of the development of
         monthly payment rates and the associated non-IV-E percentages;

    •    interviewed State agency and county agency officials to obtain an understanding of the
         procedures for verifying Title IV-E eligibility and maintenance payment amounts;

2
 The Probation Department contracts with community-based organizations to provide preplacement preventive
services, such as school-based supervision, mentoring, and tutoring, to at-risk children to help prevent delinquency.
Because our review was limited to maintenance payments for children placed in foster care, we excluded
administrative costs for preplacement services. Specifically, the $47,106,700 does not include community-based
organization costs totaling approximately $1 million (Federal share).


                                                          3
    •   obtained from the State agency its approved foster care payment rates and non-IV-E
        percentages for instate foster care facilities;

    •   obtained from the county agency a file of maintenance payments for delinquent children
        that were claimed for FYs 2005 and 2006; 3

    •   reconciled maintenance payments in the file to monthly payment reports for delinquent
        children supporting the county agency’s claims submitted to the State agency;

    •   reconciled the county agency’s claims to the State agency’s worksheets and expenditure
        summaries supporting the State agency’s Title IV-E claims submitted to the Federal
        Government;

    •   reviewed 2 contracts between the Probation Department and foster care facilities;

    •   created a database of monthly maintenance payments by combining the Title IV-E
        maintenance payments made on behalf of each delinquent child for a monthly placement;

    •   created a sampling frame consisting of 17,640 monthly maintenance payments
        ($36,079,368 Federal share);

    •   randomly selected from the sampling frame 100 monthly maintenance payments
        ($201,339 Federal share) and:

           o obtained adjustments from the county agency and netted the adjustments against the
             payments, 4

           o reviewed documentation provided by the county agency and Probation Department
             to determine whether the payments claimed by the State agency met certain Federal
             requirements,

           o reviewed the State agency’s licensing files for instate group homes,

           o reviewed the State agency’s certification and the out-of-State license for an out-of-
             State group home,

           o obtained from the out-of-State group home the costs included in its payment rate,

           o reviewed the Probation Department’s approval documentation for relative homes,


3
  The file did not include the county agency’s adjustments. These adjustments reclassified certain payments from
Title IV-E to non-IV-E sources and were reflected in subsequent claims by the State agency. The file also did not
include the county agency’s non-IV-E adjustments to exclude social work costs from Title IV-E reimbursement.
4
 The county agency had identified children associated with 33 of the 100 sampled payments as ineligible for
Title IV-E. After the State agency submitted claim adjustments to ACF, the payments netted to zero. We did not
consider these payments to be errors.


                                                         4
           o verified that the county agency used the correct State-agency-approved non-IV-E
             percentage for each facility,

           o identified the maintenance payments that did not meet certain Federal requirements
             and calculated the correct payment amounts, 5 and

           o used the results of our sample to estimate the Federal share of unallowable
             maintenance payments in the sampling frame;

    •   reconciled the Probation Department’s supporting documentation for administrative costs
        claimed under the Title IV-E program to the county agency’s quarterly administrative
        expense claims submitted to the State agency;

    •   calculated an average monthly administrative cost for a child’s monthly placement
        associated with the monthly maintenance payments in the sampling frame; 6 and

    •   estimated the unallowable associated administrative costs.

See Appendix A for our sampling methodology, Appendix B for our sample results and
estimates of unallowable maintenance payments, Appendix C for our estimation methodology
for administrative costs, and Appendix D for our estimates of unallowable administrative costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Title IV-E maintenance payments and associated
administrative costs on behalf of Los Angeles County delinquent children in accordance with
certain Federal requirements. Of the 100 monthly maintenance payments in our sample,
80 payments were allowable, 18 payments were unallowable, and 2 payments could not be
evaluated because the case files had been sealed under a court order. The 18 unallowable
payments consisted of:

    •   13 payments and associated administrative costs for children who were not eligible for
        services and



5
 When calculating the correct maintenance payment amounts, we took into account the county agency’s subsequent
adjustments and the non-IV-E share of maintenance payments not claimed for Title IV-E reimbursement.
6
 This calculation was necessary because the Probation Department did not identify administrative costs on a
monthly per-child basis.



                                                        5
    •    5 payments for eligible children that included costs for unallowable services or for
         services that were not provided. 7

Based on these sample results, we estimated that for FYs 2005 and 2006, the State agency
claimed unallowable Title IV-E costs totaling $5,700,637 (Federal share), consisting of
$2,212,926 in maintenance payments and $3,487,711 in associated administrative costs.

The State agency claimed unallowable Title IV-E costs because it did not ensure that the county
agency’s eligibility determinations and claims for maintenance payments complied with Federal
requirements. Specifically, the county agency (1) made incorrect Title IV-E eligibility
determinations or maintained insufficient documentation to support eligibility determinations,
(2) claimed payments for children whom the county agency had determined to be ineligible,
(3) claimed payments that included unallowable services because the county agency had not used
the correct non-IV-E percentages to exclude social work costs, and (4) made a clerical error that
resulted in a payment for services that were not provided.

COSTS CLAIMED FOR SERVICES PROVIDED TO INELIGIBLE CHILDREN

For 13 sampled monthly maintenance payments, the State agency claimed costs for services
provided to delinquent children who did not meet Title IV-E eligibility requirements. The
unallowable costs totaled $24,353 (Federal share). The table below shows the number of
eligibility deficiencies in the 13 payments.

                                    Summary of Eligibility Deficiencies

                                                                                            No. of
                                     Requirement Not Met                                  Payments 8
              Income                                                                          6
              Judicial determination that remaining in the home would be
              contrary to the welfare of the child                                              4
              Facility licensing and approval                                                   2
              Age                                                                               1
              Deprivation of parental support                                                   1
              Residency                                                                         1
              Reasonable efforts to prevent removal from the home                               1

The State agency claimed unallowable costs because the county agency (1) made incorrect
eligibility determinations or maintained insufficient documentation to support eligibility

7
 Administrative costs are allowable for children who are Title IV-E eligible. Because the 13 payments were
claimed on behalf of children who were ineligible for Title IV-E, the associated administrative costs were not
allowable. However, because the five payments were claimed on behalf of eligible children, the associated
administrative costs were allowable.
8
 The total exceeds 13 because 3 monthly payments had more than 1 eligibility deficiency. We questioned a
payment amount only once regardless of how many deficiencies it had.



                                                          6
determinations and (2) claimed maintenance payments for children whom the county agency had
determined to be ineligible.

Income Requirements

Section 472(a) of the Act states that children for whom States claim Title IV-E funding must
meet the eligibility requirements for Aid to Families with Dependent Children (AFDC) as
established in section 406(a) or 407 (as in effect on July 16, 1996). 9 Section 472(a)(4)(A) of the
Act defines a needy child, in part, as one who “would have received aid under the State plan
approved under section 402 (as in effect on July 16, 1996) in or for the month in which … court
proceedings leading to the removal of such child from the home were initiated ….” 10

Federal regulations (45 CFR § 233.20(a)(3)(xiv)) state: “For AFDC, in States that do not have
laws of general applicability holding the stepparent legally responsible to the same extent as the
natural or adoptive parent, the State agency shall count as income to the assistance unit the
income of the stepparent … of an AFDC child who is living in the household with the child ….”
California does not have laws of general applicability holding the stepparent legally responsible
to the same extent as the natural or adoptive parent.

The State agency claimed six monthly maintenance payments on behalf of children who did not
meet income requirements. For three of these payments, the county agency did not include the
income of the parents and/or stepparents when computing household income. For the three
remaining payments, the county agency had determined that financial need was not established;
however, the payments were erroneously charged to the Title IV-E program.

Judicial Determination That Remaining in the Home
Would Be Contrary to the Welfare of the Child

Section 472(a)(1) of the Act requires that “the removal from the home … was the result of a
judicial determination to the effect that continuation therein would be contrary to the welfare of
such child ….” Federal regulations (45 CFR § 1356.21(c)) state: “If the determination regarding
contrary to the welfare is not made in the first court ruling pertaining to removal from the home,
the child is not eligible for title IV-E foster care maintenance payments for the duration of that
stay in foster care.” Pursuant to 45 CFR § 1356.21(d): “The judicial determinations regarding
contrary to the welfare … must be explicitly documented and must be made on a case-by-case
basis and so stated in the court order.”

9
 The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 replaced AFDC with the
Temporary Assistance for Needy Families block grant. However, Title IV-E foster care requirements use the 1996
AFDC criteria for eligibility.
10
  The Deficit Reduction Act of 2005 (DRA), P. L. No. 109-171, signed into law on February 8, 2006, revised
section 472(a) of the Act to clarify that for Title IV-E foster care eligibility, a child must be eligible for AFDC in the
specified relative’s home from which he or she is removed. Our report cites the earlier Act provisions because the
DRA revisions to section 472(a) did not take effect until June 9, 2006, for districts under the jurisdiction of the U.S.
Court of Appeals for the Ninth Circuit, which includes California. Moreover, the DRA revisions to section 472(a)
of the Act did not affect our findings related to delinquent children who did not meet Title IV-E eligibility
requirements.


                                                            7
The State agency claimed four monthly maintenance payments on behalf of children for whom
the required judicial determinations had not been made. Specifically, the Probation Department
did not provide the county agency with the first court order pertaining to the child’s initial
removal from the home. (The first court order did not contain contrary-to-the-welfare findings.)
The Probation Department provided the county agency with subsequent court orders that
contained contrary-to-the-welfare findings; however, the court made these judicial
determinations after the child had been removed from the home.

Facility Licensing and Approval

Section 472(b) of the Act states: “Foster care maintenance payments may be made under this
part only on behalf of a child … who is – (1) in the foster family home of an individual … or
(2) in a child care institution ….” Section 472(c) states:

       … the term “foster family home” means a foster family home for children which
       is licensed by the State in which it is situated or has been approved … as meeting
       the standards established for such licensing; and (2) the term “child care
       institution” means a private child care institution, or a public child care institution
       … which is licensed by the State in which it is situated or has been approved …
       as meeting the standards established for such licensing ….

California’s licensing and approval standards for foster family homes (California Code of
Regulations, Title 22, division 6, chapter 9.5, section 89319) state: “All persons subject to
criminal record review shall obtain a criminal record clearance from the [State agency] or county
as appropriate. Such review will require submission of completed fingerprints pursuant to
Health and Safety Code section 1522.” Section 89387(a)(8) of the licensing and approval
standards states: “Except for infants, children shall not share a bedroom with an adult.”

ACF’s Child Welfare Policy Manual, section 8.3A.8c, states that licensing and approval
requirements may be waived for an individual relative home in certain circumstances. In these
circumstances, the reason for the waiver must be documented in the foster home’s licensing or
approval record, and the certification of licensure or approval must indicate the waiver’s
applicability to the specific relative child.

The State agency claimed two monthly maintenance payments on behalf of children in relative
homes that did not meet Federal and State requirements for foster family homes. For one
payment, the foster home did not meet California licensing and approval standards because
criminal background checks had not been conducted on all adults living in the home. For the
other payment, a female adult and a 13-year-old male child shared the same bedroom. No
waivers were documented for these exceptions to California’s licensing and approval standards.

Age Requirements

Section 472(a) of the Act requires that children for whom States claim Title IV-E funding meet
the eligibility requirements for AFDC as established in section 406(a) or 407 (as in effect on July
16, 1996). Section 406(a)(2), as in effect on July 16, 1996, states that the child must be



                                                  8
“(A) under the age of eighteen, or (B) at the option of the State, under the age of nineteen and a
full-time student in a secondary school (or in the equivalent level of vocational or technical
training), if, before he attains age nineteen, he may reasonably be expected to complete the
program of such secondary school (or such training).”

State agency eligibility regulations (section 45-201.1(b)(3) of the California DSS-Manual-
Eligibility Assistance Standards) state that the child must “[a]ttend on a full-time basis either a
high school or, if he/she has not completed high school, a vocational-technical training program
which cannot result in a college degree … provided he/she is reasonably expected to complete
either program before reaching age 19. Full-time attendance must be defined and verified by
child’s school.”

The State agency claimed one monthly maintenance payment on behalf of a child who was over
the age of 18 and could not reasonably have been expected to complete a secondary education
program (or equivalent vocational or technical training) before the age of 19. Neither the county
agency nor the Probation Department provided evidence that the child attended secondary school
or an equivalent vocational or technical training program on a full-time basis during the month
for which the payment was made.

Deprivation of Parental Support

Section 472(a) of the Act requires that children for whom States claim Title IV-E funding meet
the eligibility requirements for AFDC as established in section 406(a) or 407 (as in effect on July
16, 1996). An eligible child must be deprived of parental support, among other requirements.
Section 406(a) of the Act, as in effect on July 16, 1996, states:

       The term “dependent child” means a needy child (1) who has been deprived of
       parental support or care by reason of the death, continued absence from the home
       (other than absence occasioned solely by reason of the performance of active duty
       in the uniformed services of the United States), or physical or mental incapacity
       of a parent, and who is living with his father, mother, grandfather, grandmother,
       brother, sister, stepfather, stepmother, stepbrother, stepsister, uncle, aunt, first
       cousin, nephew, or niece, in a place of residence maintained by one or more of
       such relatives as his or their own home ….

The State agency claimed one monthly maintenance payment on behalf of a child who did not
meet the requirement that he or she be deprived of parental support or care. The county agency
had determined that deprivation was not established; however, the payment was erroneously
charged to the Title IV-E program.

Residency Requirements

Section 472(a)(4) of the Act states that children for whom States claim Title IV-E funding must
meet AFDC eligibility requirements as established in section 406(a) (as in effect July 16, 1996).
Section 406(a)(1) defines a dependent child as a needy child who “… is living with his father,
mother, grandfather, grandmother, brother, sister, stepfather, stepmother, stepbrother, stepsister,



                                                 9
uncle, aunt, first cousin, nephew, or niece, in a place of residence maintained by one or more of
such relatives as his or their own home ….”, among other requirements.

Section 472(a)(4)(A) of the Act provides that foster care maintenance payments may be made on
behalf of a child only if the child “would have received aid under the State plan approved under
section 402 (as in effect on July 16, 1996) in or for the month in which … court proceedings
leading to the removal of such child from the home were initiated ….” Section 472(a)(4)(B)(ii)
allows Title IV-E foster care funding provided that the child “had been living with a relative
specified in section 406(a) (as in effect on July 16, 1996) within six months prior to the month in
which … proceedings were initiated, and would have received such aid in or for such month if in
such month he had been living with such a relative and application therefor had been made.”

The State agency claimed one monthly maintenance payment made on behalf of a child for
whom the county agency provided no evidence that the child had lived with a specified relative
in the month of or within 6 months before the month that proceedings were initiated leading to
the child’s removal from the home. Probation Department documentation disclosed that the
child had lived in an out-of-State facility and had also resided with friends.

Reasonable Efforts To Prevent Removal From the Home

Section 471(a)(15)(B) of the Act states: “[E]xcept as provided in subparagraph (D), reasonable
efforts shall be made to preserve and reunify families—(i) prior to the placement of a child in
foster care, to prevent or eliminate the need for removing the child from the child’s home ….”

Federal regulations (45 CFR § 1356.21(b)) state: “The State must make reasonable efforts to
maintain the family unit and prevent the unnecessary removal of a child from his/her home ….
In order to satisfy the ‘reasonable efforts’ requirements of section 471(a)(15) (as implemented
through section 472(a)(1) of the Act), the State must meet the requirements of paragraphs (b) and
(d) of this section.” Section (b)(1)(i) of the regulation states: “When a child is removed from
his/her home, the judicial determination as to whether reasonable efforts were made, or were not
required to prevent the removal, in accordance with paragraph (b)(3) of this section, must be
made no later than 60 days from the date the child is removed from the home ….” Section
(b)(1)(ii) of the regulation states: “If the determination concerning reasonable efforts to prevent
the removal is not made as specified in paragraph (b)(1)(i) of this section, the child is not eligible
under the title IV-E foster care maintenance payments program for the duration of that stay in
foster care.”

The State agency claimed one monthly maintenance payment on behalf of a child for whom the
court did not make a timely judicial determination as to whether reasonable efforts were made to
prevent removal from the home. Specifically, the judicial determination occurred more than
6 months after the child had been removed from the home.




                                                 10
Unallowable Associated Administrative Costs

As explained in Appendixes C and D, we estimated that the State agency claimed $34,716
(Federal share) in unallowable administrative costs associated with the 13 sampled monthly
maintenance payments for services provided to ineligible children.

COSTS CLAIMED FOR UNALLOWABLE SERVICES AND
SERVICES NOT PROVIDED

The State agency claimed five monthly maintenance payments on behalf of Title IV-E eligible
children for unallowable services (four payments) or services that were not provided (one
payment).

The State agency claimed these unallowable costs, which totaled $330 (Federal share), because
the county agency (1) had not used the correct non-IV-E percentages to exclude social work
costs and (2) made a clerical error that resulted in a payment for services that were not provided.

Costs Claimed for Unallowable Services

Section 472(b)(2) of the Act limits maintenance payments to “only those items which are
included in the term ‘foster care maintenance payments’ (as defined in section 475(4)).” Section
475(4)(A) of the Act states: “The term ‘foster care maintenance payments’ means payments to
cover the cost of (and the cost of providing) food, clothing, shelter, daily supervision, school
supplies, a child’s personal incidentals, liability insurance with respect to a child, and reasonable
travel to the child’s home for visitation.”

The State agency claimed four monthly maintenance payments that included social work costs,
which are not covered under the Federal definition of foster care maintenance payments. The
county agency claimed social work costs because it had not used the correct non-IV-E
percentage or had not used any non-IV-E percentage to exclude the costs.

Costs Claimed for Services Not Provided

OMB Circular A-87, Attachment A, states that to be allowable under Federal awards, a cost must
be determined in accordance with generally accepted accounting principles (section C.1.g.) and
adequately documented (section C.1.j.). In addition, section C.2. states: “A cost is reasonable if,
in its nature and amount, it does not exceed that which would be incurred by a prudent person
under the circumstances prevailing at the time the decision was made to incur the cost.”

The State agency claimed one monthly maintenance payment for services that the facility did not
provide. The case file documented that the child had run away and was no longer in the facility.
The child’s absence from the facility was greater than 14 days, and the Probation Department
terminated the child’s placement at the facility after the child ran away. Because of a clerical
error, the county agency used the incorrect number of facility days to calculate the payment
amount for the facility. The payment exceeded the facility costs because services were no longer
being provided to the child.



                                                 11
SUMMARY OF UNALLOWABLE COSTS CLAIMED

Of the 100 monthly maintenance payments sampled, 18 payments included unallowable costs
totaling $24,683 for services provided to ineligible children or for unallowable services or
services not provided to eligible children. Based on the sample results, we estimated that for
FYs 2005 and 2006, at least $2,212,926 of the $36,079,368 (Federal share) claimed for
maintenance payments was unallowable for Federal reimbursement.

We estimated that the State agency claimed $34,716 in unallowable administrative costs
associated with the 13 sampled monthly maintenance payments for services provided to
ineligible children. Therefore, we estimated that for FYs 2005 and 2006, at least $3,487,711 of
the $47,106,700 (Federal share) claimed for associated administrative costs was unallowable for
Federal reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal Government $5,700,637 for unallowable costs, consisting of
        $2,212,926 in maintenance payments and $3,487,711 in associated administrative costs,
        and

    •   ensure compliance with Federal requirements by periodically selecting a sample of foster
        care case files for delinquent children to determine whether the county agency (1) made
        correct eligibility determinations and maintained sufficient documentation to support
        eligibility determinations and (2) claimed payments only for eligible children, allowable
        services, and services provided.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency did not concur with our first
recommendation and the amount of the recommended refund. The State agency provided
explanations and documentation for five sample items related to unallowable maintenance
payments for children who were not eligible for services:

   •    Regarding the sample item for the finding in the draft report related to lack of
        documentation supporting the eligibility determination, the State agency commented that
        the probation case file was sealed by the court. The State agency also commented that
        our audit identified another sealed case file in which we determined that the sample item
        represented a payment that could not be evaluated.

   •    Regarding two sample items for the finding related to income requirements, the State
        agency provided documentation supporting that income requirements had been met. One
        of these sample items also had a finding related to deprivation of parental support, for
        which the State agency also provided supporting documentation.




                                               12
   •   Regarding a sample item for the finding related to age requirements, the State agency
       commented that the Title IV-E Foster Care Eligibility Review Guide stated that an
       independent living plan satisfied eligibility requirements. The State agency provided a
       signed transitional independent living plan to support the payment for the child associated
       with this sample item.

   •   Regarding a sample item for the finding related to a judicial determination that remaining
       in the home would be contrary to the welfare of the child, the State agency provided a
       copy of the court transcript from December 29, 2005, that identified the requisite
       Title IV-E findings for the payment.

The State agency concurred with our second recommendation and provided information on
actions that it had taken or planned to take to address the recommendation, including making a
Web-based training module available in mid-2011 for child welfare and probation staff and
reviewing the training and technical assistance provided by the Office of Administrative Courts
to ensure that county probation departments are knowledgeable on the completion of judicial
documentation. The State agency also commented that it would temporarily redirect resources to
perform onsite claims validation in up to six counties, including Los Angeles County. In its
review of Los Angeles County, the State agency will include a review of claimed payments from
a sample of foster care case files for delinquent children.

The State agency’s comments are included as Appendix E. We excluded individual case file
documentation attached to the State agency’s comments because it contained personally
identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s documentation for the five sample items, we concluded that
one payment could not be evaluated and removed the associated finding from the final report,
three payments were allowable (related to the findings regarding income, deprivation of parental
support, and age requirements), and one payment remained unallowable (related to the finding
regarding judicial determination). Accordingly, we revised the number of payments that could
not be evaluated, the number of unallowable payments, the associated unallowable
administrative costs, and the amount of the recommended refund.

For the sample item that remained unallowable, the court transcript provided by the State agency
pertained to the December 29 dispositional hearing, not the December 27 adjudication hearing in
which the child was ordered detained in juvenile hall. The December 27 court order did not
contain the required judicial determination that it was contrary to the child’s welfare to remain in
the home. Federal regulations (45 CFR § 1356.21(c)) state: “The contrary to the welfare
determination must be made in the first court ruling that sanctions (even temporarily) the
removal of a child from home.”




                                                13
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY FOR
                         MONTHLY MAINTENANCE PAYMENTS

POPULATION

The population consisted of monthly Title IV-E foster care maintenance payments made on
behalf of Los Angeles County delinquent children that the California Department of Social
Services (the State agency) claimed for Federal reimbursement. These payments were claimed
during Federal fiscal years (FY) 2005 and 2006.

SAMPLING FRAME

We obtained monthly maintenance payments from the Los Angeles County Department of
Children and Family Services. We combined the payments made on behalf of a delinquent child
for a monthly placement into a single monthly maintenance payment. We excluded any monthly
maintenance payment that totaled zero or a negative amount. The resulting sampling frame
consisted of 17,640 monthly maintenance payments totaling $36,079,368 (Federal share).

SAMPLE UNIT

The sample unit was a monthly maintenance payment made on behalf of a delinquent child
placed in foster care.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 monthly maintenance payments.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Inspector General, Office of Audit Services
(OAS), statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 17,640. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the Federal share of the monthly maintenance
payments unallowable for Federal reimbursement.
     APPENDIX B: SAMPLE RESULTS AND ESTIMATES FOR MONTHLY
            MAINTENANCE PAYMENTS (FEDERAL SHARE)

                                 Sample Results

            Total Costs
  No. of    Claimed for             Total Costs   No. of     Value of
 Monthly     Monthly      No. of    Claimed for Unallowable Unallowable
Maintenance Maintenance  Sampled     Sampled     Monthly     Monthly
Payments in Payments in  Monthly     Monthly    Maintenance Maintenance
 Sampling    Sampling   Maintenance Maintenance  Payments    Payments
  Frame       Frame      Payments    Payments    Claimed     Claimed
  17,640    $36,079,368     100      $201,339       18        $24,683

            Estimates of Unallowable Monthly Maintenance Payments
             (Limits Calculated for a 90-Percent Confidence Interval)

                     Point estimate          $4,353,993
                     Lower limit              2,212,926
                     Upper limit              6,495,060
  APPENDIX C: ESTIMATION METHODOLOGY FOR ADMINISTRATIVE COSTS

Administrative costs associated with preplacement activity, eligibility determinations, licensing,
and training may be incurred for children who are considered foster care candidates (i.e.,
children not yet removed from their homes), as well as for children already placed in foster care.
Because our audit covered monthly maintenance payments on behalf of delinquent children
placed in foster care, the associated administrative costs included only the Los Angeles County
Probation Department’s (Probation Department) Title IV-E costs for case planning and
management and excluded administrative costs for preplacement services. The administrative
costs included in our review are similar to those that the Administration for Children and
Families uses to calculate administrative cost disallowances during its Title IV-E foster care
eligibility reviews. The Probation Department’s administrative costs for case planning and
management claimed by the State agency for FYs 2005 and 2006 totaled $47,106,700 (Federal
share).

The Probation Department did not identify administrative costs on a monthly per-child basis.
Therefore, to estimate the administrative costs associated with unallowable monthly maintenance
payments, we calculated an average monthly administrative cost for a child’s monthly
placement, as shown below:

                                         Total No. of
            Total Title IV-E               Monthly                 Average Monthly
            Administrative              Placements for              Administrative
             Costs Claimed                Delinquent                Cost per Child’s
            (Federal Share)                Children                Monthly Placement

               $47,106,700       ÷          17,640            =            $2,670

Because administrative costs are allocated to the Title IV-E program based on a ratio of
Title IV-E eligible children to all foster care children, administrative costs are allowable for
children who are Title IV-E eligible. Conversely, administrative costs are unallowable for
children who are not Title IV-eligible. Therefore, we considered the associated monthly
administrative costs to be unallowable when a sampled monthly maintenance payment was
determined to be unallowable because of an ineligible child. However, if the monthly
maintenance payment was determined to be unallowable for reasons not related to a child’s
eligibility, we considered the associated monthly administrative costs to be allowable.

We used the OAS statistical software to estimate the total Federal share of unallowable
administrative costs associated with the Probation Department’s claims for unallowable monthly
maintenance payments.
        APPENDIX D: ESTIMATES OF ADMINISTRATIVE COSTS (FEDERAL SHARE)

             Estimate of Unallowable Administrative Costs Claimed for Sampled Payments

                                                                                        Estimated
                                                     Total Estimated                   Unallowable
                                                     Administrative       No. of      Administrative
  Total No. of                         No. of        Costs Claimed       Monthly      Costs Claimed
   Monthly              Total         Sampled         for Sampled      Maintenance     for Sampled
 Maintenance       Administrative     Monthly           Monthly        Payments for      Monthly
  Payments in     Costs Claimed in   Maintenance      Maintenance       Ineligible     Maintenance
Sampling Frame    Sampling Frame      Payments          Payments         Children       Payments

    17,640           $47,106,700         100            $267,045             13          $34,716



                           Estimates of Unallowable Administrative Costs
                       (Limits Calculated for a 90-Percent Confidence Interval)

                               Point estimate           $6,123,876
                               Lower limit               3,487,711
                               Upper limit               8,760,041
                                                                                                 Page 1 0[5


                    APPENDIX E: STATE AGENCY COMMENTS 




   8Jj                 STATE OF CALI FORNIA-HEALTH AND HUMAN SERV ICES AGENCY



   -
   CDSS
JOHN A . WAGNER
   DI RECTOR
                       DEPARTMENT OF SOCIAL SERVICES
                             744 P Street · Sacramento, CA 9581 4' www.cdss.ca.gov
                                                                                     ARNOLD SCHWARZENEGGER
                                                                                           GOVERNOR




      December 13, 2010


       Lori A. Ahlstrand 

       Regional Inspector General 

       Office of Audit Services, Region IX 

       90 - 7th Street, Suite 3-650 

       San Francisco, CA 94103 


       Dear Ms. Ahlstrand:

       SUBJECT: OFFICE OF INSPECTOR GENERAL AUDIT REPORT A-09-08-00023

      The California Department of Social Services (CDSS) appreciates the opportunity to
      respond to the Office of Inspector General's (OIG) draft report entitled "Review of Title
      IV-E Foster Care Costs Claimed on Behalf of Delinquent Children in Los Angeles
      County, California". The review objective was to determine whether the CDSS claimed
      Title IV-E maintenance and associated administrative costs (on behalf of Los Angeles
      County) for delinquent children in accordance with federal requirements. As a result,
      the review recommends that CDSS:

          1. refund $8,084,007 to the Federal Government; and
          2. perform periodic sampling.

      The enclosed response provides the reasons CDSS is disagreeing with the
      recommended refund and the Department's efforts to resolve the recommendation to
      perform periodic sampling.

      If you have any questions, please contact me at (916) 657-2598, or Cynthia Fair, Chief,
      Audits Bureau at (916) 651-9923.

       Sincerely,




      Director

      Enclosures
                                                                                                       Page 2 of5


                                                                                           Enclosure

          CDSS Response to QIG Draft Report A-09-08-000233

          Recommendations for Social Services

                Recommendation #1: 

                Refund to the Federal Government $8,084,007 for un allowable costs, 

                cons isting of $3,020,316 in ma intenance payments and $5,063,691 in 

                associated administrative costs. 


                CD$S Response #1: The CDSS does not concur. 

                The following sample case responses explain/support CDSS response position: 


                Sample Numbe r 2-7966 : Missing documentatio n, unable to verify eligibility 

                - no probation case file 

                This probation case file was sealed by the courts , Los Angeles County cited 

                Welfare and Institutions Code section 781 (copy enclosed) that "once the court 

                has ordered the records sealed. the proceedings in the case shall be deemed 

                never to have occurred". This audit identified another sealed case (73-4695) that 

                was initially a finding but subsequently removed from the findings. In discussion 

                with the DIG auditor,               3 the finding for sample number 73-4695 was 

                dropped because the auditors received and reviewed case file eligibility and 

                minute orders and determined it was a sealed cese and therefore removed the 

                case as a finding. D IG Auditor _        stated that Los Angeles County did not 

                provide any information on sample number 2-7966 therefore, it remained a 

                finding. CDSS confirmed with the DIG Auditor t he documentation that was 

                needed for DIG to review the case file eligibility and minute orders for sample 

                number 2-7966. We are providing you with the reconstructed elig ibility 

                documentation and the appropriate minute order to substantiale and verify the 

                eligibility for this sample number. Enclosed please find a: reconstructed FC2 for 

                Detention date of 3/ 12/2001; reconstructed FC3 for Pelii:on date of 3/12/200 1: 

                FC3 (Supplement) for Petition of March 2001 ; Wage and Earning statements for 

                the period inclusive of March 2001 ; and , Minute Order daled 3/12/2001 . 

                Additionally, enclosed is a statement irom Region IX indicating that 

                reconstruction of Aid to Families with Dependent Children (AFDC) linkage (all 

                other things remaining the same) is permissible. 


                In the event that OIG decides not to accept the enclosed eligibility documentation
                for this sample number, CDSS believes that this sample number must be
                removed from the population of sample numbers for audit and extrapolation
                purposes. To the extent that necessary documentation exists in the file sealed
                by order of the Court, it is unavailable to CDSS, and no presumption should be
                created as to whether thai information exists or does not exist in the sealed court
                file. It is unfair and unreasonable to determine that a disallowance be applied to
                Los Angeles County, because it could not obtain documentation that was sealed
                by court order. The Court's action to seal this case was '1ot brought about by any
                action or inaction by CDSS or Los Angeles County . This case was not sealed
                through an effort to concea l information pertaining to the state or county's
                performance in meeting fede ral requirements in t his case. It was sealed as
                required by California law. Furthermore, there is nothing CDSS or Los Angeles


          Draft DIG Review A-09-08-00023                                          December 2, 2010




Office of Inspector General Note: We concluded that the payment for sample item 2-7966
could not be evaluated and removed this finding from the final report. We have redacted
personally identifiable information from the State agency comments.
                                                                                           Page 3 0[5


                                                                                   Enclosure

CDSS Response to OIG Draft Report A-09-08-000233

       County can do to unseal this case, because under the statute regarding sealed
       cases, (See WIC Section 781 , enclosed) there is no legal basis for CDSS or Los
       Angeles County to move to unseal this case. Accordingly, should OIG refuse to
       change its determination of error in this case, OIG should remove this sample
       number from the sample.

      Sample number 21-3666: AFDC Linkage
      The finding was based on AFDC linkage being determined in the month of
      December 2003 instead of November 2003-the month the child was removed
      from the home. We are providing documentation that establishes the AFDC
      linkage based on November 2003 (wage documentation and FC3 enclosed).
      Additionally, enclosed is a statement from Region IX indicating that
      reconstruction of AFDC linkage (all other things remaining the same) is
      permissible.

       Sample number 44-93767: Age Requirement
     . This OIG finding states "no evidence of verification from school of full time
       attendance and reasonably expected to complete program before age 19".
       Enclosed is an excerpt from the Title IV-E Foster Care Eligibility Review Guide,
       dated March 2006. This review guide identifies on page 36 that "School records,
       independent living plans, or other documentation similar in purpose are examples
       of evidence that may be used to satisfy the eligibility reqUirement". Enclosed is
       the Transitional Independent Living Plan (TILP) for the child identified with this
       finding. The OIG used a sample payment month of August 2005. The TILP was
       completed and signed in July 2005 indicating the youth is expected to graduate
       from high school prior to his 19th birthday. In past federal Title IV-E reviews , the
       level of review for verification of school graduation has not proceeded beyond an
       examination of the appropriate eligibility forms. In addition to the TILP , enclosed
       are the CDSS Division 45 regulations and two All County Letters instructing
       county welfare departments on the education requirement

      Sample number 60-17256: Judicial Determination
      This OIG findi ng indicates that a "contrary to the welfare" finding was not
      made in the minute order. Enclosed is a copy of the court transcripts from
      December 29,2005 , that identify the requisite Title IV-E findings . It is CDSS '
      experience that some minute orders do not contain the required findings, but the
      court transcripts do; therefore , CDSS and Administration for Children and
      Families allow use of either the minute order or court transcripts to document that
      requisite Title IV-E findings are made on the first court ruling that sanctions the
      child's removal from the home.

      Sample number 78-2454: AFDC Linkage
      This OIG finding indicates the eligibility case file did not contain a FC2 , FC 3
      and/or FC3 (Supplement); therefore the AFDC eligibi lity was not verified . Los
      Angeles County indicated that this case had two separate foster care segments.
      CDSS confirmed with the OIG Auditor that eligibility documentation for the
      removal in June 2001 was the documentation needed for this sample number.

Draft OIG Review A-09-08-00023               2                            December 2, 2010
                                                                                               Page 4 0[5


                                                                                    Enclosure

CDSS Response to OIG Draft Report A-09-08-000233

       We are providing you with the reconstructed eligibility documentation and the 

       appropriate minute order to substantiate and verify the eligibility for this sample 

       number (enclosed). Additionally, enclosed is a statement from Region IX 

       indicating that reconstruction of AFDC linkage (all other things remaining the 

       same) is permissible. 


II    Recommendation #2: 

      Periodically select and sample foster care case files for delinquent children 

      to determine whether the county agency has done the following: 


             a. 	 made correct eligibility determinations and maintained sufficient
                  documentation to support those determ inations; and,
             b. 	 claimed payments only for eligible children, allowable services,
                  and services provided.

       CDSS Response #2.a: The CDSS does concur.
       The CDSS is the single state agency responsible for oversight of Title IV-E funds.
      As such, the state undergoes Federal Reviews every three years and has
       successfully passed the 2003, 2006 and 2009 review. Given the low error rate
       under the Title IV-E review, CDSS does not believe there are systemic problems
      with eligibility determinations. However while CDSS concurs that monitoring
      eligibility determinations is a significant function of oversight, CDSS is not a
       control, or funding, agency and lacks resources to adequately perform this
      function on a consistent basis. Due to external considerations for resources,
      CDSS is committed to work within the state's budget processes and with control
      agencies to seek additional resources to perform regular and consistent
      monitoring functions to ensure correct eligibility determinations and sufficient
      documentation to support those determinations. Approval of any new resources
      must go through the normal budget and legislative processes. The CDSS has
      been developing a "work around" to this oversight issue by proposing a web­
      based training module for chiid welfare and probation staff to ensure that county
      placing agencies have the correct training to determine and complete the
      appropriate forms. The Department anticipates making th is web-based training
      available mid 2011. Additionally, CDSS contracts with the Office of
      Administrative Courts to provide judicial reviews and technical assistance on a
      consistent basis throughout the state. 'The CDSS can review the training and
      technical assistance to ensure that county probation departments are
      knowledgeable on the completion of judicial documentation to allow the child
      welfare eligibility workers to make the correct eligibility determination. Other
      issues identified in the findings, such as eligible facility, etc., would be addressed
      through the web-based training.

      CDSS Response #2.b: The CDSS does concur.
      As part of a corrective action implementation plan for Audit Common
      Identification Number A-09-1 0-12782, the Department has formally implemented
      the current procedures to address recurrent claiming inconsistencies or



Draft OIG Review A-09-08-00023               3	                            December 2,2010
                                                                                           Page 5 0[5


                                                                                   Enclosur~


CDSS Response to OIG Draft Report A-09-08-000233

       unexplained expenditures that are identified through either: (1) claims reviews ,
       (2) budget trend or variance analysis, or (3) A-133 audit reviews. 

       In addition , for state FY 2010-11, the CDSS will temporarily redirect resources to 

       perform onsite claims validation in up to six counties, including Los Angeles 

       County. In its review of Los Angeles County, the CDSS will include a review of 

       claimed payments for eligible children, allowable services , and services provided 

       from a sample of foster care case files for delinquent children. The CDSS is 

       committed to work within the state's budget processes and with control agencies 

       to seek additional resources to perform regular and consistent fiscal onsite 

       monitoring of county claiming procedures . Approval of any new resources must 

       go through the normal budget and legislative processes. 





Draft OIG Review A-09-08-00023               4                            December 2, 2010
